LEGAL PRINTERS,

LLC

202-747-2400
202-449-9565 Fax
LegalPrinters.com

5614 Connecticut Avenue, NW #307
Washington, DC 20015

November 20, 2019
Clerk
Supreme Court of the United States
1 First Street, NE
Washington, D.C. 20002
RE 19-518: COLORADO DEPARTMENT OF STATE V. MICHEAL BACA, ET AL.
Dear Sir or Madam:
I hereby certify that at the request of Amicus Curiae, Professor Michael T.
Morley, on November 20, 2019, I caused service to be made pursuant to Rule 29 on the
following counsel for the Petitioner and Respondents:
PETITIONER:
Eric Reuel Olson
Colorado Department of Law, Office of
the Attorney General
1300 Broadway
10th Floor
Denver, CO 80203
720-508-6548
eric.olson@coag.gov

RESPONDENTS:
Lawrence Lessig
Harvard Law School
1563 Massachusetts Avenue
Cambridge, MA 02138
617-496-8853
lessig@law.harvard.edu

This service was effected by depositing three copies of the Brief of Professor
Michael T. Morley as Amicus Curiae in Support of Neither Party in an official “first
class mail” receptacle of the United States Post Office as well as by transmitting digital
copies via electronic mail.
Sincerely,

Jack Suber, Esq.
Principal

Sworn and subscribed before me this 20th day of November 2019.

